<html>
<title> - RECOGNIZING THAT FOR 50 YEARS THE ASSOCIATION OF SOUTH EAST ASIAN NATIONS (ASEAN) HAS WORKED TOWARD STABILITY, PROSPERITY, AND PEACE IN SOUTHEAST ASIA; TAIWAN TRAVEL ACT; NORTH KOREAN HUMAN RIGHTS REAUTHORIZATION ACT OF 2017; AND DISTRIBUTION AND PROMOTION OF RIGHTS AND KNOWLEDGE ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





   RECOGNIZING THAT FOR 50 YEARS THE ASSOCIATION OF SOUTH EAST ASIAN 
 NATIONS (ASEAN) HAS WORKED TOWARD STABILITY, PROSPERITY, AND PEACE IN 
     SOUTHEAST ASIA; TAIWAN TRAVEL ACT; NORTH KOREAN HUMAN RIGHTS 
 REAUTHORIZATION ACT OF 2017; AND DISTRIBUTION AND PROMOTION OF RIGHTS 
                       AND KNOWLEDGE ACT OF 2017

=======================================================================


                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

             H. Res. 311, H.R. 535, H.R. 2061 and H.R. 2397

                               __________

                             JUNE 15, 2017

                               __________

                           Serial No. 115-42

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-845 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 311, Recognizing that for 50 years the Association of 
  South East Asian Nations (ASEAN) has worked toward stability, 
  prosperity, and peace in Southeast Asia........................     2
  Amendment in the nature of a substitute to H. Res. 311 offered 
    by the Honorable Ted S. Yoho, a Representative in Congress 
    from the State of Florida, and chairman, Subcommittee on Asia 
    and the Pacific..............................................    15
H.R. 535, To encourage visits between the United States and 
  Taiwan at all levels, and for other purposes...................    20
H.R. 2061, To reauthorize the North Korean Human Rights Act of 
  2004, and for other purposes...................................    24
  Amendment to H.R. 2061 offered by the Honorable Ted S. Yoho....    31
  Amendment to H.R. 2061 offered by the Honorable Gerald E. 
    Connolly, a Representative in Congress from the Commonwealth 
    of Virginia..................................................    32
H.R. 2397, To amend the North Korean Human Rights Act of 2004 to 
  authorize further actions to promote freedom of information and 
  democracy in North Korea, and for other purposes...............    34

                                APPENDIX

Markup notice....................................................    44
Markup minutes...................................................    45
Markup summary...................................................    46
 
     RECOGNIZING THAT FOR 50 YEARS THE ASSOCIATION OF SOUTH EAST ASIAN 
 NATIONS (ASEAN) HAS WORKED TOWARD STABILITY, PROSPERITY, AND PEACE IN 
     SOUTHEAST ASIA; TAIWAN TRAVEL ACT; NORTH KOREAN HUMAN RIGHTS 
 REAUTHORIZATION ACT OF 2017; AND DISTRIBUTION AND PROMOTION OF RIGHTS 
                       AND KNOWLEDGE ACT OF 2017

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order.
    Good afternoon. We have called this markup to order today 
to consider four important measures that touch on pressing 
challenges that the United States faces in the Asia-Pacific 
region. After the conclusion of this brief business meeting, we 
will proceed immediately to our scheduled hearing on U.S.-
Taiwan ties.
    Pursuant to notice, we have four bipartisan measures on our 
agenda this afternoon. As members were notified yesterday, it 
is the intention of the Chair to consider today's business en 
bloc so that we can proceed promptly to our hearing. All 
members may have 5 days to insert remarks into the record and, 
without objection, the following measures and amendments will 
be considered en bloc: House Resolution 311, reaffirming 40 
years of relations between the United States and the 
Association of the Southeast Asian Nations; Yoho Amendment 37 
in the Nature of a Substitute to H. Resolution 311; H.R. 535, 
the Taiwan Travel Act; H.R. 2061, the North Korean Human Rights 
Reauthorization Act of 2017; Yoho Amendment 38 to H.R. 2061; 
and H.R. 2397, the Distribution and Promotion of Rights and 
Knowledge of DPRK Act of 2017.
    Before turning to our ranking member, I recognize myself to 
speak on--and the Connolly Amendment--excuse me--Amendment 26 
to H.R. 2061. And thank you.
    [The information referred to follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Mr. Yoho. First, we have House Resolution 311, which 
recognizes 40 years of the U.S.-ASEAN ties and reaffirms the 
economic security interests we share with this dynamic group of 
countries.
    I want to thank Representatives Wagner and Castro, who 
chair the recently revived ASEAN Caucus. We are offering this 
measure for focusing on an area that is sometimes overlooked 
but very much deserving of our attention. The 10 nations of 
ASEAN have tremendous potential for growth and share our 
interests in a secure bipolar Asia. So, reaffirming our 
relations is an important undertaking.
    We will also consider the Taiwan Travel Act authored by Mr. 
Chabot, the chairman emeritus of the subcommittee. Chairman 
Chabot's bill will strengthen U.S.-Taiwan relations by 
codifying a policy of greater freedom of movement for the 
Republic of China officials in the United States and will also 
facilitate more high-level interactions between our 
governments.
    In the face of China's intensifying efforts to restrict 
Taiwan's international space, strengthening our relationships 
with Taiwan is especially important. So I thank Chairman Chabot 
for introducing this measure.
    Next, we consider Chairman Ros-Lehtinen's reauthorization 
of the North Korea Human Rights Act, as the 2014 U.N. 
Commission of Inquiry of North Korea found the gravity, scale, 
and nature of human rights abuses reveals a state that does not 
have any parallel in the contemporary world. Indeed, the Kim 
regime is the world's worst human rights abuser and North Korea 
Human Rights Act is a fundamental part of congressional 
leadership to end these abuses.
    I have offered a technical amendment to this legislation to 
unify some of its authorization with legislation the committee 
has passed since the Human Rights Act was last reauthorized and 
look forward to sending this bill to the full committee.
    Finally, we consider the Distribution and Promotion of 
Rights and Knowledge Act of 2017. This bill will promote the 
freedom of information and democracy in North Korea and I would 
like to thank the ranking member, Mr. Sherman, as well as 
Chairman Royce, and Ranking Member Engel of the full committee 
for joining us as original cosponsors on this legislation.
    This bill will expand the authority of the President and 
the Broadcasting Board of Governors to transmit and distribute 
information inside North Korea, one of the surest ways to 
weaken the Kim regime's grip on power, to promote freedom and 
liberties.
    My sincere thanks to my colleagues for joining us today to 
move these important measures further along in the legislative 
process.
    I now recognize our ranking member, Mr. Sherman, for any 
remarks he may have.
    Mr. Sherman. Thank you, Mr. Chairman.
    We have four excellent bills. We should pass them. I 
understand we will pass then en bloc and before we do that, we 
should adopt the, I believe, en bloc amendment to H.R. 2061, 
which includes the amendment from Mr. Connolly.
    With that, unless someone wants me to yield time, I yield 
back.
    Mr. Yoho. Members seeking recognition will be recognized 
for brief remarks.
    Mr. Chabot.
    Mr. Chabot. Thank you.
    I want to thank the chairman for bringing this legislation 
before the subcommittee today. I rise in support of H.R. 535, 
the Taiwan Travel Act, a bill that I, along with my colleague 
and friend from California, Mr. Sherman, introduced earlier 
this year.
    As a founding member of the Congressional Taiwan Caucus, I 
take the commitments of our country with Taiwan very seriously. 
Yesterday, I expressed my concerns to the Secretary of State, 
Tillerson, regarding our own self-imposed restrictions that 
prohibit high-ranking United States officials from meeting with 
their Taiwanese counterparts and, worse, bars Taiwanese 
officials from setting foot in our Nation's capital, in this 
city right here. It is ridiculous. This is a center of 
democracy and freedom. Taiwanese officials should be able to 
come and meet with American officials here in Washington, DC.
    This policy goes against our own self-interest. It tells 
China that we are willing to yield to them on our own foreign 
policy. It conveys weakness, I believe, to Beijing. Not only 
does restricting visits by high-level Taiwanese decision-makers 
tie our leaders' hands and insult an ally, it makes it nearly 
impossible to conduct diplomacy in an increasingly critical 
region.
    The United States should have direct dialogue with the 
democratically-elected leadership of Taiwan and it is time to 
change this outdated policy. The Taiwan Travel Act will do 
this.
    China continues to take aggressive actions that further its 
long-running campaign to isolate Taiwan. The United States has 
a legal and moral commitment to defend Taiwan sovereignty in 
the face of these attacks. Restricting high-level visits from 
Taiwan insults and ally and damages our national security in an 
increasingly dangerous world.
    The United States should encourage direct dialogue with the 
democratically-elected leadership of our ally, Taiwan. It is 
time to change our policy. I encourage my colleagues to support 
this measure.
    I once again want to thank Mr. Sherman for his leadership 
on this issue as well, making it a bipartisan measure. And I 
yield back.
    Mr. Yoho. Thank you, Mr. Chabot.
    Next we will go to Ms. Gabbard. Did you have a comment?
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    I would like to express my support for all of today's 
initiatives, including the Taiwan Travel Act, which I believe 
can be, frankly, the cornerstone for a more what I will call a 
mature relationship with Taiwan that recognizes Taiwan's 
tremendous contributions to both democracy and to stability in 
the Asia Pacific.
    I would also like to speak specifically in support of House 
Resolution 311, the resolution I was honored to introduce with 
my colleague, Representative Castro, in commemoration of 
ASEAN's 50th anniversary and the 40th anniversary of U.S.-ASEAN 
relations.
    Southeast Asia has tremendous cultural, political, 
historical, and religious diversity. ASEAN was formed, in part, 
to create a bulwark against communism in the Southeast Asia 
among these diverse nations. And today, ASEAN's goals have 
evolved and the region is experiencing tremendous growth, 
nearly $100 billion in U.S. goods and services are exported to 
ASEAN, rivaling our $113 billion market in China.
    In January, I founded the bipartisan Congressional Caucus 
on ASEAN with my colleague, Congressman Castro. The Caucus 
acknowledges America's special relationship with ASEAN and 
defines ways that Congress can strengthen security, economic, 
technical, and humanitarian engagement in Southeast Asia.
    House Resolution 311 was one of our first initiatives and I 
am grateful that the chair and the ranking member are strong 
supporters of this effort. The resolution supports and affirms 
the elevation of the United States-ASEAN relationship to a 
strategic partnership and reaffirms a U.S. commitment to 
promoting a rules-based order in the Asia Pacific and economic 
growth, peace, human rights, and stability in Southeast Asia.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. Yoho. Thank you, Mrs. Wagner for those great remarks.
    Hearing no further request for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    Mr. Sherman. Mr. Chairman, we amended H.R. 2061 with the 
two en bloc amendments as part of this?
    Mr. Yoho. Yes, sir.
    Mr. Sherman. Okay, so it includes both adopting the en bloc 
amendment to 2061 and your motion also passes.
    Mr. Yoho. Yes, sir, and I thank you for pointing that out.
    Mr. Sherman. That makes it an outstanding motion, Mr. 
Chairman.
    Oh, we may have one more.
    [Simultaneous speaking.]
    Mr. Yoho. We have the honor of being joined by Ms. Ros-
Lehtinen. Do you have a comment that you would like to----
    Mr. Sherman. And I do want to remark I am thrilled that the 
left wing of this table has become so popular.
    Mrs. Wagner. Solidarity! Solidarity!
    Mr. Sherman. We are just moderating that side.
    Ms. Ros-Lehtinen. Now that FOX has let go of its fair and 
balanced slogan.
    Thank you, Dr. Yoho, and thank you, Ranking Member Sherman. 
We have our own subcommittee hearing on Russia and the Middle 
East downstairs, so I am a little out of breath. But thank you 
for working with our office to bring the North Korea Human 
Right Reauthorization Act of 2017 to markup today.
    I was proud to author and lead the reauthorization of this 
important law in both 2008 and 2012, and I am proud to do so 
again with the measure before you today, H.R. 2061.
    Since 2004, the Human Rights Act of North Korea has 
provided us in the United States with a number of essential 
tools, designed to promote North Korean human rights. H.R. 2061 
ensures that those tools will continue to be available, 
including authorizing grants that promote human rights, 
democracy and the rule of law; authorizing actions aimed at 
promoting the freedom of information, including increasing the 
availability of information sources not controlled by the Kim 
regime; authorizing humanitarian assistance to North Korean 
refugees, defectors, migrants, and orphans, as well as women 
who are victims of trafficking. It also ensures that the 
Special Envoy for North Korea Human Rights Issues; once someone 
is re-appointed, as is required by the original law, continues 
reporting to Congress on how he or she is fulfilling their 
responsibilities.
    Every day under the Kim regime, North Koreans are suffering 
unimaginable horrors. They live under constant fear of arrest, 
of disappearance, of execution. They are exploited. They are 
trafficked, while dissidents are starved and tortured. Rule of 
law, justice, and freedom of expression simply do not exist.
    With this bill, we ensure that our efforts in the United 
States to promote North Korean human rights continue, that 
desperately needed information is getting to those inside, and 
that refugees fleeing the regime are receiving protection.
    Before I go, I would like to express my support for 
Chairman Yoho's Distribution and Promotion of Rights and 
Knowledge Act, which makes some very valuable additions to the 
North Korea Human Rights Act, including promoting additional 
methods of electronic communication and authorizing the 
broadcast of popular culture, as well as knowledge about the 
rights, the laws, the freedoms which North Koreans should be 
afforded.
    The Kim regime cannot be allowed to maintain its monopoly 
on information and we must continue to explore every possible 
avenue in order to allow North Koreans to get the information 
they need.
    I thank the chair. I thank the ranking member and all the 
members for allowing me to join you today. And I yield back. 
Thank you, sir.
    Mr. Yoho. Thank you, Ms. Ros-Lehtinen. Everybody wants to 
know why you stay so fit and it is because you run from one 
committee hearing to the next.
    Ms. Ros-Lehtinen. From one meal to the next.
    Voice. And I am coming to the next, too.
    Mr. Yoho. Hearing no further requests for recognition, the 
question occurs on the items considered en bloc, along with the 
approval of the amendments.
    All those in favor say aye.
    Opposed?
    In the opinion of the Chair, the ayes have it and the 
measures considered en bloc are agreed to. Without objection, 
the measures considered en bloc are ordered favorably reported 
to the full committee, as amended, and staff is directed to 
make any technical and conforming changes.
    That concludes our markup.
    [Whereupon, at 2:48 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
